Report No. DODIG-2012-057           February 27, 2012





     Guidance Needed to Prevent Military Construction 

   Projects From Exceeding the Approved Scope of Work

Additional Copies
To obtain additional copies of this report, visit the Web site of the Department of Defense
Inspector General at http://www.dodig.mil/audit/reports or contact the Secondary Reports
Distribution Unit at (703) 604-8937 (DSN 664-8937) or fax (571) 372-7469.

Suggestions for Audits
To suggest or request audits, contact the Office of the Deputy Inspector General for
Auditing by phone (703) 604-9142 (DSN 664-9142), by fax (571) 372-7469, or by mail:

                      Department of Defense Office of Inspector General
                      Office of the Deputy Inspector General for Auditing
                      ATTN: Audit Suggestions/13F25-04
                      4800 Mark Center Drive
                      Alexandria, VA 22350-1500




Acronyms and Abbreviations
AFCEE                         Air Force Center for Engineering and the Environment
AFCENT                        U.S. Air Forces Central
ARCENT                        U.S. Army Central
MILCON                        Military Construction
O&M                           Operations and Maintenance
SOW                           Statement of Work
USACE                         U.S. Army Corps of Engineers
USD(C)/CFO                    Under Secretary of Defense (Comptroller)/Chief Financial
                                 Officer
                                   INSPECTOR GENERAL
	
                                  DEPARTMENT OF DEFENSE
	
                                  4800 MARK CENTER DRIVE
	
                               ALEXANDRIA, VIRGINIA 22350-1500
	


                                                                               February 27, 2012


MEMORANDUM FOR DEPUTY UNDER SECRETARY OF DEFENSE
                 FOR INSTALLATIONS AND ENVIRONMENT
               ASSISTANT SECRETARY OF THE AIR FORCE FOR FINANCIAL
                 MANAGEMENT AND COMPTROLLER
               COMMANDER, U.S. ARMY CENTRAL
               COMMANDER, U.S. AIR FORCES CENTRAL
               AUDITOR GENERAL, DEPARTMENT OF THE ARMY

SUBJECT:	 Guidance Needed to Prevent Military Construction Projects From Exceeding the
          Approved Scope of Work (Report No. DODIG-2012-057)

We are providing this report for review and comment. The Army and Air Force requirements
development and design processes for the projects reviewed resulted in statements of work that
had defined requirements, had measurable outcomes, and generally met DoD’s needs. However,
Army and Air Force officials did not construct primary facilities for three projects in accordance
with facility sizes on the congressional request for authorization. In addition, Air Force Center
for Engineering and the Environment officials improperly authorized the expenditure of at least
$3.3 million for one project during the requirements development and design processes.

We considered management comments on a draft of this report when preparing the final report.
DoD Directive 7650.3 requires that recommendations be resolved promptly. The Deputy Under
Secretary of Defense for Installations and Environment, U.S. Air Forces Central, and U.S. Army
Corps of Engineers comments were responsive and we do not require additional comments. The
U.S. Army Central comments were partially responsive. We request that U.S. Army Central
provide additional comments on Recommendation B.1 by April 13, 2012. We did not receive
comments from the Air Force Center for Engineering and the Environment before issuing this
final report. We request that the Air Force Center for Engineering and the Environment provide
comments on Recommendations A.3, A.5, and B.2 by April 13, 2012.

If possible, send a portable document format (.pdf) file containing your comments to
audjsao@dodig.mil. Copies of your comments must have the actual signature of the authorizing
official for your organization. We are unable to accept the /Signed/ symbol in place of the actual
signature. If you arrange to send classified comments electronically, you must send them over
the SECRET Internet Protocol Router Network (SIPRNET).
We appreciate the courtesies extended to the staff. Please direct questions to me at
(703) 604-8905 or DSN 664-8905.




                                             Amy Frontz
                                             Principal Assistant Inspector General for
                                               Auditing


cc:
Commander, U.S. Central Command
Commander, U.S. Forces-Afghanistan
Commanding General, U.S. Army Corps of Engineers
Director, Air Force Center for Engineering and the Environment
Report No. DODIG-2012-057 (Project No. D2011-D000JB-0068.000)                       February 27, 2012

               Results in Brief: Guidance Needed to Prevent
               Military Construction Projects From
               Exceeding the Approved Scope of Work
What We Did                                             Additionally, AFCEE officials improperly
                                                        authorized the construction of facilities for one
This audit is the first in a series of reports on       project. This occurred because AFCEE officials
military construction (MILCON) projects in              did not conduct scope verifications and perform
Afghanistan. Our objective was to evaluate the          proper contract administration. As a result,
requirements development process for MILCON             AFCEE officials improperly authorized the
projects in Afghanistan. We evaluated the               expenditure of at least $3.3 million.
Army and Air Force requirements development
and design processes for 17 projects, totaling
approximately $456 million. We determined               What We Recommend
whether the requirements development and                Among other recommendations, we recommend
design processes resulted in statements of work         that the Deputy Under Secretary of Defense for
that defined requirements, had measurable               Installations and Environment issue clarification
outcomes, and met DoD’s needs.                          guidance to define the scope of work outlined in
                                                        section 2853, title 10, United States Code, that
What We Found                                           may not be exceeded. Once the Deputy Under
                                                        Secretary of Defense for Installations and
The Army and Air Force requirements                     Environment issues clarifying guidance, we
development and design processes for the                recommend that the Commanding General,
17 projects reviewed resulted in defined                USACE and Director, AFCEE develop and
requirements, measurable outcomes, and                  implement procedures to perform scope
projects that generally met DoD’s needs.                verifications to ensure compliance with
Despite the processes, one Air Force project did        section 2853, title 10, United States Code.
not fully meet DoD’s needs. Specifically, the
Air Force project justification required the            We also recommend that the Director, AFCEE
repair of a runway to be C-17 aircraft capable,         identify the officials responsible for not
but the justification did not include a                 performing proper contract administration,
requirement for wider taxiways to support               perform a review of the contract file to ensure it
C-17 aircraft. Subsequently, Congress approved          is complete and accurate, and initiate
a separate project that included the necessary          administrative action, as deemed appropriate.
taxiway to fully meet DoD’s needs.

In addition, the design process for 3 of the            Management Comments and
17 projects did not result in U.S. Army Corps of        Our Response
Engineers (USACE) and Air Force Center for
Engineering and the Environment (AFCEE)                 The Deputy Under Secretary of Defense for
officials constructing facilities in accordance         Installations and Environment, U.S. Air Forces
with facility sizes on the congressional request        Central, and USACE agreed with the
for authorization. This occurred because the            recommendations, and the comments were
scope of work variations permissible by                 responsive. The comments from U.S. Army
section 2853, title 10, United States Code, from        Central were partially responsive. We issued a
the congressional request for authorization are         draft of this report on December 19, 2011. We
unclear and inconsistently applied. As a result,        did not receive comments from AFCEE before
DoD officials do not have assurance that                issuing this final report. We request that
MILCON projects are built consistent with               U.S. Army Central provide additional comments
congressional intent and in accordance with             and AFCEE provide comments by April 13,
legislative requirements.                               2012. Please see the recommendations table on
                                                        the back of this page.

                                                    i
Report No. DODIG-2012-057 (Project No. D2011-D000JB-0068.000)             February 27, 2012



      Recommendations Table
              Management                  Recommendations          No Additional
                                         Requiring Comment       Comments Required
      Deputy Under Secretary of
      Defense for Installations and                             A.1
      Environment
      Commander, U.S. Army
                                       B.1                      A.2
      Central
      Commander, U.S. Air Forces
                                                                A.3
      Central
      Commanding General,
                                                                A.4.a-b
      U.S. Army Corps of Engineers
      Director, Air Force Center for
      Engineering and the              A.3, A.5, B.2.a-c
      Environment

      Please provide comments by April 13, 2012.
	




                                                ii
	
Table of Contents
Introduction		                                                                        1
	
      Objective                                                                       1
	
      Background                                                                      1
	
      Requirements Development and Design Processes for Military Construction 

          Projects in Afghanistan Executed Under the Design-Build Strategy            1

      Project Requirements Documents                                                  2

      Projects Reviewed                                                               5

      Review of Internal Controls                                                     6


Finding A. Requirements Development and Design Processes Generally Met 

DoD’s Needs, but the Design Process Did Not Always Ensure Projects Were
	
Constructed in Accordance With the Request for Authorization                          7
	
      Projects Had Defined Requirements and Measurable Outcomes                       7

      One Project Did Not Fully Meet DoD’s Needs                                      8

      Projects Not Constructed in Accordance With the Facility Sizes on the Request 

          for Authorization                                                           9
	
      Permissible Scope of Work Variations Are Unclear                              12 

      Permissible Scope of Work Variations Are Not Consistently Applied and 

          Are Subject to Informal Guidance                                          13 

      Guidance and Procedures Needed to Ensure Military Construction Projects 

          Are Built Consistent With Congressional Intent                            14 

      Management Comments on the Finding and Our Response                           14 

      Recommendations, Management Comments, and Our Response                        15
	

Finding B. Air Force Center for Engineering and the Environment Improperly 

Authorized Construction and Preparation Activities at Camp Phoenix and New
	
Kabul Compound                                                                       18
	
      Background on Camp Phoenix North Expansion Project                             18
	
      Construction of Facilities for One Project Not Authorized                      19
	
      Scope Verifications Not Performed                                              22
	
      Contract Administration Needed Improvement                                     22 

      Expenditure of Funds Not Authorized                                            23 

      Management Actions Taken and Planned                                           23 

      Management Comments on the Finding and Our Response                            23 

      Recommendations, Management Comments, and Our Response                         24 


Appendices
       A. Scope and Methodology		                                                    26
	
           Contracts Reviewed                                                        26 

           Use of Computer-Processed Data                                            30 

           Prior Coverage                                                            30 

       B. DD Form 1391, “FY __ Military Construction Project Data”	                  32 

Table of Contents (cont’d)
Glossary                                                              34
	

Management Comments
      Deputy Secretary of Defense for Installations and Environment   36
	
      U.S. Central Command                                            37 

      U.S. Army Corps of Engineers                                    49 

Introduction
Objective
This is the first in a series of reports on military construction (MILCON) projects in
Afghanistan. Our audit objective was to evaluate the requirements development process
for MILCON projects in Afghanistan. We evaluated the Army and Air Force
requirements development and design processes for 17 projects, totaling approximately
$456 million. We determined whether the requirements development and design
processes resulted in statements of work (SOW) that defined requirements, had
measurable outcomes, and met DoD’s needs. See Appendix A for the audit scope,
methodology, and prior coverage related to the audit objective.

Background
MILCON can include any construction, development, conversion, or extension of any
kind to a military installation, whether to satisfy temporary or permanent requirements.
Section 2802, title 10, United States Code, states that the Secretary of Defense and the
Secretaries of the Military Departments may carry out MILCON projects, as authorized.
Generally, MILCON projects are authorized through congressional notification or
approval, depending on the type and amount of funding used.1 MILCON projects can be
paid for with different types of funds such as Specified Military Construction,
Unspecified Minor Military Construction, and Operations and Maintenance (O&M).2 As
of October 2011, U.S. Forces-Afghanistan officials programmed or planned
approximately $5.5 billion for FY 2007 through FY 2014 to complete MILCON projects3
in Afghanistan.

Requirements Development and Design Processes for
Military Construction Projects in Afghanistan Executed
Under the Design-Build Strategy
For the purpose of consistency in this report and based on information provided by
U.S. Army Corps of Engineers (USACE) and Air Force Center for Engineering and the
Environment (AFCEE) officials, we divided the MILCON process for projects executed
under the design-build strategy4 into two parts: the requirements development process
and the design process. The requirements development process occurs during the project
planning phase. During the project planning phase, U.S. Army Central (ARCENT) and
U.S. Air Forces Central (AFCENT) officials are responsible for identifying user primary
and supporting facility requirements for MILCON projects in their area of responsibility.
Once ARCENT and AFCENT officials identify the requirements, the applicable Service


1
  Contingency Construction Authority authorizes the use of O&M funds for MILCON projects outside the 

United States when those projects meet certain criteria.

2
  For the definition of these and other terms, see the Glossary.
	
3
  The amount of MILCON projects programmed or planned does not include O&M funded projects.
	
4
  MILCON projects executed under the design-build strategy are both designed and constructed by the 

same contractor.
	

                                                  1
	
Secretary, the Under Secretary of Defense (Comptroller)/Chief Financial Officer
(USD[C]/CFO), or Congress must approve those requirements.5

Once approved, the project enters the design process. The design process occurs during
the contract development and design and construction phases. During the contract
development phase, the construction agent,6 in coordination with the user, prepares the
SOW to describe all work to be performed by the contractor. USACE or AFCEE act as
the construction agent, as appropriate, and awards the contract. USACE is the lead
construction agent supporting the U.S. Central Command area of responsibility, including
Afghanistan. AFCEE may be designated as the construction agent in specific cases in
accordance with the procedures outlined in DoD Directive 4270.5, “Military
Construction,” February 12, 2005. During the design and construction phase, the
construction agent is responsible for performing oversight of the contractor and
conducting contract administration. This includes reviewing and accepting changes to
the SOW and design drawings at various stages of construction through completion and
acceptance of the primary and supporting facilities.

Project Requirements Documents
Multiple documents are prepared in the requirements development and design processes
for MILCON projects executed under the design-build strategy. During the requirements
development process, the DD Form 1391, “FY __ Military Construction Project Data,”
expresses the user’s facility needs. During the design process, the SOW describes the
work to be performed by the contractor and the contractor’s design drawings represent
different stages of project design. Upon project completion, the user signs a
DD Form 1354, “Transfer and Acceptance of DoD Real Property,” to signify acceptance.




5
  The appropriate requirement approval authority is dependent on the type and amount of funding used for
	
the MILCON project.

6
  A construction agent is an approved DoD activity with various assigned responsibilities during the design
	
process.
	

                                                     2
	
Figure 1 shows the project requirements documents as they relate to the phases of the
requirements development and design processes for MILCON projects executed under
the design-build strategy.

                 Figure 1. Project Requirements Documents and the
	
          Phases of the Requirements Development and Design Processes for 

            MILCON Projects Executed Under the Design-Build Strategy
	

    Requirements
    Development                          Design
      Process                            Process




       Project            Contract                Design and
      Planning           Development             Construction
        Phase               Phase                   Phase



      DD Form                                             Design                       DD Form
                          SOW            Contract
       1391                                              Drawings                       1354




DD Form 1391
The DD Form 1391 is the principal project justification document to express the user’s
facility needs to request authorization and funds from Congress through the chain of
command. The DD Form 1391 should provide detailed, informative statements as to why
the project is needed and must identify each primary and supporting facility required to
complete the construction project and the unit of measure, unit quantity, and unit cost for
each facility. For projects that require congressional notification or approval,7 the
United States Code establishes legal requirements for staying within the project scope of
work on the DD Form 1391. According to section 2853, title 10, United States Code
(10 U.S.C. § 2853), the scope of work for a MILCON project may not be reduced by
more than 25 percent and may not be increased from the justification data provided to
Congress on the congressional request for authorization, the DD Form 1391. However, if
a reduction in the scope of work permissible or cost increase is necessary, Congress must
be notified in writing.8 See Appendix B for an example of a DD Form 1391.


7
  For MILCON projects funded under Contingency Construction Authority, projects are not authorized to
proceed until written approval is provided by the USD(C)/CFO and after the 10-day waiting period upon
notification to Congress has expired.
8
  For MILCON projects funded under Contingency Construction Authority, the USD(C)/CFO must
approve scope changes that require funds in excess of the approved amount and submit a congressional
notification.

                                                    3

Statement of Work
The construction agent, in coordination with the user, prepares the SOW,9 which builds
on the DD Form 1391 and defines, either directly or by reference to other documents, all
work to be performed by the contractor. Military Handbook 245D, “Handbook for
Preparation of Statement of Work (SOW),” April 3, 1996, states that preparation of an
effective SOW requires both an understanding of the goods or services that are needed to
satisfy a particular requirement and an ability to define what is required in specific,
performance-based, quantitative terms.

Design Drawings
Based on the SOW, the contractor develops and submits design drawings to the
construction agent for acceptance throughout the design and construction phase. The
design drawings represent different stages of project design and include the design
completion status in percentages, such as 30 to 35 percent, 50 to 65 percent, or
100 percent. The contractor uses the design drawings to carry out the SOW requirements
and complete the MILCON project.

DD Form 1354
Upon project completion, the user accepts the construction of the primary and supporting
facilities on a DD Form 1354. A DD Form 1354 is an instrument used by Military
Services to accept new construction or capital improvements and to transfer real property
assets between Services. U.S. Government liability for a facility starts upon occupancy
or formal acceptance of the facility on the DD Form 1354, whichever comes first.




9
 USACE project requirements include a technical requirements document that encompasses the scope of
work. The USACE scope of work is equivalent to the SOW used in AFCEE project requirements.

                                                  4
	
Projects Reviewed
We nonstatistically selected 10 contracts that were provided by USACE and AFCEE for
projects in Afghanistan, totaling approximately $456 million. Specifically, we selected
five USACE and five AFCEE contracts, delivery orders, or task orders that encompassed
17 projects. All of the projects selected were executed under the design-build strategy.
Table 1 shows the projects reviewed. Although Project ACC101101 was a repair project
and not a construction project, the requirements for Project ACC101101 were approved
on a DD Form 1391, “FY __ Military Construction Project Data,” and therefore, we
included Project ACC101101 in the scope of the audit. Tables A-1 and A-2 in
Appendix A provide the name and location of the USACE and AFCEE projects,
respectively.

                              Table 1. Projects Reviewed
             U.S. Army Corps of               Air Force Center for Engineering
             Engineers Projects                 and the Environment Projects
       Project        Contract Number            Project       Contract Number
      Numbers        and Contract Cost          Numbers        and Contract Cost
                                             CMBA0939404     FA8903-06-D-8505,
    730871          W912ER-09-C-0011
                                             CMBA093950  4   Task Order 0016
    730891          $42.6 Million
                                             732901          $185.1 Million
                                                             FA8903-06-D-8505,
                    W912ER-09-C-0037         CMBA093975  3
    733952                                                   Task Order 0023
                                                   1
                    $12.2 Million            77159
                                                             $61.5 Million
                    W5J9JE-10-D-0006,                        FA8903-06-D-8506,
    726052          Delivery Order 0002      ACC1011015      Task Order 0004
                    $11.1 Million                            $36.6 Million
                3
    LYAV093300                                               FA8903-06-D-8510,
                    W912ER-10-C-0034
    LYAV103200  3
                                             68628 1         Task Order 0007
                    $31.9 Million
    KARD1043203                                              $31.8 Million
                                                             FA8903-06-D-8511,
                    W912ER-10-C-0054         732222
    776081                                                   Task Order 0056
                                                   2
                    $29.5 Million            73210
                                                             $13.9 Million
1
  Funded with O&M, Army funds under Contingency Construction Authority. 

2
  Funded with Military Construction, Army funds.
	
3
  Funded with Military Construction, Air Force funds.
	
4
  Funded with O&M, Air Force funds under Contingency Construction Authority. 

5
  Funded with O&M, Air Force funds.
	




                                                  5
	
Review of Internal Controls
We identified internal control weaknesses as defined by DoD Instruction 5010.40,
“Managers’ Internal Control Program (MICP) Procedures,” July 29, 2010. We identified
that AFCEE officials for one contract did not conduct scope verifications and perform
proper contract administration. We will provide a copy of this report to the senior
officials responsible for internal controls at AFCEE.




                                          6
	
Finding A. Requirements Development and
Design Processes Generally Met DoD’s
Needs, but the Design Process Did Not
Always Ensure Projects Were Constructed in
Accordance With the Request for
Authorization
The Army and Air Force requirements development and design processes for the
17 projects reviewed, totaling approximately $456 million, resulted in defined
requirements, measurable outcomes, and projects that generally met DoD’s needs.
Despite the processes, one Air Force project did not fully meet DoD’s needs.
Specifically, the Air Force project justification required the repair of a runway to be
C-17 aircraft capable, but the justification did not include a requirement for wider
taxiways to support C-17 aircraft. We were unable to determine why the requirements
development and design processes did not result in the project fully meeting DoD’s needs
because of the rotation of personnel outside the area of responsibility and current
personnel could not provide a reasonable explanation as to why the requirement was not
included. Subsequently, Congress approved a separate project that included the
necessary taxiway to fully meet DoD’s needs.

In addition, the design process for 3 of the 17 projects did not result in USACE and
AFCEE constructing primary facilities in accordance with facility sizes on the
congressional request for authorization. This occurred because the scope of work
variations permissible by 10 U.S.C. § 2853 from the congressional request for
authorization are unclear and inconsistently applied. Until the Deputy Under Secretary of
Defense for Installations and Environment issues guidance that clarifies the scope of
work variations permissible by 10 U.S.C. § 2853 and USACE and AFCEE implements
that guidance through scope verifications, DoD officials will not have assurance that
MILCON projects are built consistent with congressional intent and in accordance with
legislative requirements.

Projects Had Defined Requirements and Measurable
Outcomes
The requirements development and design processes for the 17 projects reviewed resulted
in SOWs that had defined requirements and measurable outcomes with quantifiable
results. Specifically, the SOWs either directly, or by reference to other documents,
included requirements that were specific, logical, complete, and could be assessed during
project execution. For example, the SOW for Project 73087, “Brigade Housing and
Battalion Relocation,” included measurable requirements for housing 1,500 personnel.
The requirements included specifications for 12 re-locatable buildings, comprised of
2 floors, with 34 units on each floor.



                                           7
	
The SOW for Project 72605, “Troop Housing, Phase 3,” included measurable
requirements for 3 barracks that will provide housing for 972 military personnel with
occupancy requirements based on International Building Code10 standards.

One Project Did Not Fully Meet DoD’s Needs
Despite the requirements development and design processes, one Air Force repair project
did not fully meet DoD’s needs upon Government acceptance. An AFCENT official
stated that on February 2, 2010, the Deputy Assistant Secretary of the Air Force for
Installations, approved the DD Form 1391 for Project ACC101101, “Repair
Runway 18/36,” at Shindand Air Base, Afghanistan. Figure 2 shows progress on the
repair of runway 18/36. Using O&M funds of approximately $36.6 million, the project
scope included requirements to remove and replace 75,500 square meters of existing
pavement, so the runway could adequately support aircraft operating at Shindand Air
Base, to include C-17 aircraft. However, the existing taxiways at Shindand Air Base,
which were not included on the DD Form 1391, are 45 feet wide, whereas a C-17 aircraft
requires a minimum taxiway width of 50 feet. Therefore, according to an AFCEE
official, if a C-17 aircraft were to land on the existing Shindand Air Base runway, the
runway would have to close until the C-17 takes off because the C-17 would be unable to
taxi off the runway, impacting all other fixed-wing flying operations.

                      Figure 2. Progress on the Repair of Runway 18/36




                Source: AFCEE Weekly Activity Report, August 15-21, 2010.




10
  International Building Code is a set of structural, fire, and life safety provisions published by the
International Code Council.

                                                       8
	
We contacted personnel at AFCENT to determine why a requirement for wider taxiways
to accommodate C-17 aircraft was omitted from Project ACC101101. However, an
AFCENT official stated the AFCENT officials that prepared the DD Form 1391 were no
longer in the area of responsibility and the AFCENT official was unable to provide us
with a reasonable explanation as to why Project ACC101101 did not include a
requirement for wider taxiways. Therefore, we were unable to determine why the
requirements development and design processes for this project did not fully meet DoD’s
needs.

On July 29, 2010, Congress approved a DD Form 1391 for Project WACC104602,
“Strategic Airlift Apron,” at Shindand Air Base. The project scope included a
75,000 square meter aircraft apron and connecting taxiways and shoulders for strategic
airlift aircraft (C-5 and equivalents). The C-5 aircraft taxiway requirements exceed those
required to support C-17 aircraft. The taxiway under Project WACC104602 was
completed in October 2011.

Projects Not Constructed in Accordance With the
Facility Sizes on the Request for Authorization
The design process for 3 of the 17 projects reviewed did not result in USACE and
AFCEE officials constructing primary facilities in accordance with facility sizes on the
congressional request for authorization. Specifically, USACE and AFCEE officials
accepted contractor design drawings
and transferred a facility on a          The design process for 3 of the 17 projects
DD Form 1354 that had exceeded or reviewed did not result in USACE and
reduced facility size requirements       AFCEE officials constructing primary
on the DD Form 1391. According to facilities in accordance with facility sizes on
10 U.S.C. § 2853, the scope of work the congressional request for authorization.
for a MILCON project may not be
reduced by more than 25 percent, unless Congress is notified in writing, and
may not be increased from the justification data provided to Congress on the
congressional request for authorization, the DD Form 1391. To determine increases and
decreases in scope, we used the facility size on the DD Form 1391.

USACE Project
USACE officials did not ensure that the facility size for one project was in accordance
with the DD Form 1391. Specifically, USACE officials accepted contractor design
drawings that exceeded the facility size on the DD Form 1391 for a primary facility, an
increase of 8.0 percent.




                                            9
	
See Table 2 for the USACE project with a primary facility that was not in accordance
with the facility size on the DD Form 1391.

            Table 2. USACE Project With A Primary Facility Not in Accordance
                    With the Primary Facility Size on the DD Form 1391
                                                               Facility Size
         Facility Name on            Facility Size on                                    Percentage
                                                                in Design
         DD Form 1391                DD Form 1391                                         Increase
                                                                Drawings*
     Project 77608 - Special Operations Forces Compound
      Vehicle Maintenance            462              499
                                                                                         8.0 Percent
      Shop                      Square Meters     Square Meters
*Facility size is based on 65 percent design drawings.

In addition, USACE officials accepted contractor design drawings that exceeded the
requirements on the DD Forms 1391 for Project LYAV103200, “Tactical Airlift Apron,”
and Project LYAV093300, “Strategic Airlift Apron,” for grounding and tie-down points,
a supporting facility. However, USACE officials stated that the number of grounding
and tie-down points did not alter the scope of the primary facility, the airlift apron.

A USACE official stated that they would take corrective action to ensure that the vehicle
maintenance shop, a primary facility under Project 77608, is within the scope of work
variations permissible on the DD Form 1391. Specifically, on July 5, 2011, the official
stated that they planned to direct the contractor through design review comments to
ensure the facility size is in accordance with the requirement on the DD Form 1391 for
Project 77608. Subsequently, on October 27, 2011, a USACE official stated that the
95 percent design drawings for the vehicle maintenance shop should be in accordance
with permissible scope of work variations from the DD Form 1391. The Commanding
General, USACE should ensure that the design drawings for the vehicle maintenance
shop are in accordance with permissible scope of work variations from the
DD Form 1391.

AFCEE Projects
AFCEE officials did not ensure that the facility sizes for two projects were in accordance
with the DD Form 1391. For the first project, AFCEE officials accepted contractor
design drawings that reduced the facility size on the DD Form 1391 for a primary facility,
a decrease of 36.0 percent (11 percent over the 25 percent limit). For the second project,
an AFCEE official transferred a primary facility on a DD Form 1354 to II Marine
Expeditionary Force for acceptance11 that exceeded the facility size on the
DD Form 1391 by 17.9 percent.




11
     As of November 2011, II Marine Expeditionary Force had not accepted the facility.

                                                     10
	
See Table 3 for the AFCEE projects with primary facility sizes that were not in
accordance with facility sizes on the DD Form 1391.

        Table 3. AFCEE Projects With Primary Facilities Not in Accordance
                  With Primary Facility Sizes on the DD Form 1391
                                                  Facility Size
                           Facility Size on        in Design      Percentage
     Facility Name on
                           DD Form 1391          Drawings or      Decrease or
      DD Form 1391
                                                DD Form 1354        Increase
  Project CMBA093975 - Expand Munitions Storage Area
                               12,400                7,937*       36.0 Percent
    Munitions Pads
                            Square Meters       Square Meters      Decrease
  Project 73290 - Rotary-Wing Parking and Taxiways, Phase 1
    Rotary-Wing
                               65,000                76,656       17.9 Percent
    Taxiways and Apron,
                            Square Meters       Square Meters       Increase
    Paved
*Facility size is based on 100 percent design drawings.

Figure 3 shows the completed strategic apron portion of the rotary-wing parking and
taxiways project.

                      Figure 3. Completed Strategic Apron Portion of
                        Rotary-Wing Parking and Taxiways Project




               Source: AFCEE Weekly Activity Report, June 5-11, 2011.

On November 21, 2011, the AFCEE Chief, Contingency Construction stated that the
scope of work variation from the DD Form 1391 for the munitions pads, a primary
                                                    11
	
facility under Project CMBA093975, was within the overall project scope reduction
permissible by 10 U.S.C. § 2853 and no congressional scope notification was required.
However, a Deputy Under Secretary of Defense for Installations and Environment12
official stated that scope, with respect to 10 U.S.C. § 2853, is the size of the primary
facility on the DD Form 1391. Therefore, the Director, AFCEE should ensure that the
design drawings for the munitions pads are in accordance with permissible scope of work
variations from the DD Form 1391 or AFCENT officials should prepare and submit a
revised DD Form 1391 to request that Congress decrease the permissible facility size for
the munitions pads.

On June 24, 2011, the AFCEE Chief, Contingency Construction acknowledged an
unauthorized growth in the paved rotary-wing taxiways and apron, a primary facility
under Project 73290. The Chief stated that AFCEE officials have contacted the
appropriate programming authority to seek guidance on how to resolve the unauthorized
growth. The Commander, ARCENT should provide assurance that the unauthorized
growth was resolved by submitting a DD Form 1391 to request the USD(C)/CFO, with
congressional notification, to retroactively approve an increase in the permissible facility
size for the paved rotary-wing taxiways and apron.

Permissible Scope of Work Variations Are Unclear
Section 2853, title 10, United States Code, allows certain scope of work variations.
Specifically, 10 U.S.C. § 2853 states that the scope of work for a MILCON project may
not be reduced by more than 25 percent, unless Congress is notified in writing, and may
not be increased from the justification data provided to Congress on the congressional
request for authorization. However, the legislation does not provide clear context on the
definition of scope of work. For example, scope of work could be understood as the
primary and supporting facilities listed on the DD Form 1391, the actual size of those
facilities, or the project scope as a whole. We were unable to identify DoD guidance that
clearly defined the term scope of work and the variations permissible by
10 U.S.C. § 2853 for a MILCON project.

To implement 10 U.S.C. § 2853, the Army issued guidance; however, the Army’s
guidance did not clearly define the term scope of work and the variations permissible.
Army Regulation 420-1, “Army Facilities Management,” June 17, 2009, reiterates
10 U.S.C. § 2853 in that scope of work increases are not permissible; however, it does
not state how scope of work increases are to be determined. Army Regulation 420-1 does
provide guidance on how to determine reductions in the scope of work. Specifically,
reductions in dollars as well as engineering-based attributes, such as square footage, are
used to determine the 25 percent scope of work reduction permissible by
10 U.S.C. § 2853. We did not identify Air Force guidance that defined the term scope of
work and the variations permissible by 10 U.S.C. § 2853 for a MILCON project.




12
  The Deputy Under Secretary of Defense for Installations and Environment is responsible for establishing
policy and guidance for MILCON efforts.

                                                   12
	
Permissible Scope of Work Variations Are Not
Consistently Applied and Are Subject to Informal
Guidance
USACE and AFCEE officials did not consistently apply scope of work variations
permissible by 10 U.S.C. § 2853. Instead, USACE and AFCEE officials used their own
informal guidance to determine permissible scope of work variations.

USACE Application and Guidance
When we asked why some supporting facility sizes were not in accordance with the
DD Form 1391, USACE officials stated for Project LYAV103200 and
Project LYAV093300, the number of grounding and tie-down points, which were
considered a supporting facility on the DD Forms 1391, did not alter the scope of the
primary facility, the airlift apron. While we agree that the supporting facility
requirements outlined on the DD Forms 1391 at the time of approval may not have been
accurate to support the primary facility requirements, 10 U.S.C. § 2853 does not
specifically exclude supporting facilities from the scope of work that may not be
exceeded.

Although USACE officials inconsistently applied the scope of work variations
permissible by 10 U.S.C. § 2853, they did provide informal procedures for ensuring the
authorized scope of work on the DD Form 1391 is not exceeded. Specifically, USACE
officials provided informal procedures on how scope verifications are conducted
throughout the design process, including USACE verifying that modifications to the
project scope conform to the DD Form 1391. These procedures implement
Army Regulation 420-1. Specifically, Army Regulation 420-1 requires a verification
statement that the project scope conforms to that of the DD Form 1391. However,
Army Regulation 420-1 does not state how to perform the scope verification.

AFCEE Application and Guidance
AFCEE officials we interviewed provided us with different interpretations of the scope of
work variations permissible by 10 U.S.C. § 2853. Specifically, one official stated that as
long as the approved cost of the project on the DD Form 1391 remained the same, then a
variation in facility size from the DD Form 1391 would not result in a violation of
10 U.S.C. § 2853. Another AFCEE official stated that it is standard operating procedure
to determine compliance with 10 U.S.C. § 2853 by conducting an overall project scope
analysis using weighted percentages for each line item on the DD Form 1391.

Although AFCEE officials inconsistently applied the scope of work variations
permissible by 10 U.S.C. § 2853, they did provide informal guidance outlining the roles
and responsibilities of various AFCEE offices for conducting scope verification
procedures. An AFCEE official also stated that they plan to institutionalize mandatory
scope verifications throughout the design process to ensure scope integrity and eliminate
discrepancies with facility sizes. Further, an AFCEE official stated that they plan to
create a scope verification spreadsheet for each design review to compare the facility size
in the design drawings to that on the DD Form 1391.

                                            13
	
Guidance and Procedures Needed to Ensure Military
Construction Projects Are Built Consistent With
Congressional Intent
We were unable to identify DoD, Army, or Air Force guidance that clearly defined the
term scope of work and the variations permissible by 10 U.S.C. § 2853 for a MILCON
project. Until the Deputy Under Secretary of Defense for Installations and Environment
issues guidance that clarifies the scope of work variations permissible by
10 U.S.C. § 2853 and the Army and Air Force implements that guidance, including
developing formal scope verification procedures, DoD officials will not have assurance
that MILCON projects are built consistent with congressional intent and in accordance
with legislative requirements.

Management Comments on the Finding and
Our Response
U.S. Central Command Comments
Although not required to comment, the Chief, Engineer Division, U.S. Central Command
stated that Project ACC101101 is a repair project funded with O&M and does not fall
within the work classification of construction. The Chief stated that repair projects have
different rules and regulations that guide their execution. Specifically, the Chief stated
that a repair contract cannot include construction or expansion in its scope of work,
which is why a separate construction project to construct ramps and expand taxiways was
programmed and executed in conjunction with the repair project. He stated this was a
coordinated effort following work classification guidance to ensure a complete and
usable airfield.

The Chief, Engineer Division, U.S. Central Command, stressed the impact of a change in
strategy when operating in a contingency construction environment, to include the
amount of work required to decrease a project’s cost and scope. The Chief suggested we
recommend the DoD request relief from congressional notification requirements for
scope and cost decreases for contingency MILCON projects.

The Chief, Engineer Division, U.S. Central Command stated that, although briefly
mentioned in the report that processes generally met DoD’s needs and resulted in defined
requirements, there were very few positive comments or discussion on what was found
that was working and should be sustained. The Chief stated that if the general consensus
is that the process works, he recommended that we highlight this fact as much as the
deficiencies and recommended improvements.

Our Response
We agree that Project ACC101101 was a repair project, not a construction project, as
stated in the report. However, the DD Form 1391, “FY __ Military Construction Project
Data,” justification stated that the runway should support a C-17 aircraft. A separate
DD Form 1391 could also have been approved in conjunction with Project ACC101101

                                           14
	
to construct ramps and expand taxiways to support C-17 aircraft. However, the
DD Form 1391 that included the required taxiways was not approved until 6 months after
Project ACC101101 was approved.

We agree that working in a contingency environment puts a strain on resources, both
monetary and personnel. However, the work we performed under this audit does not
support making a recommendation to request relief from congressional notification
requirements for contingency MILCON projects when scope and cost decreases occur.

We acknowledge that the requirements development and design processes resulted in
SOWs that had defined requirements and measurable outcomes with quantifiable results.
We provided examples in the report as to how the requirements were defined and
measurable. However, the remainder of the report focused on addressing areas for
improvement.

Recommendations, Management Comments, and Our
Response
A.1. We recommend that the Deputy Under Secretary of Defense for Installations
and Environment issue clarifying guidance to define the scope of work outlined in
section 2853, title 10, United States Code, that may not be exceeded, or reduced by
25 percent.

Deputy Under Secretary of Defense for Installations and
Environment Comments
The Director, Facilities Investment and Management, responding for the Deputy Under
Secretary of Defense for Installations and Environment, agreed and stated they would
issue guidance to clarify scope of work in 10 U.S.C. § 2853.

Our Response
The Director, Facilities Investment and Management comments were responsive and the
actions met the intent of the recommendation. No additional comments are required.

A.2. We recommend that the Commander, U.S. Army Central ensure the
unauthorized growth of the paved rotary-wing taxiways and apron, a primary
facility under Project 73290, was resolved by submitting a DD Form 1391 to request
the Under Secretary of Defense (Comptroller)/Chief Financial Officer, with
congressional notification, to retroactively approve an increase in the permissible
facility size.

U.S. Army Central Comments
The Executive Director, U.S. Central Command Inspector General endorsed and
forwarded comments from ARCENT. An ARCENT representative agreed and revised
the DD Form 1391 for Project 73290 to reflect an increase in the permissible facility size
for the paved rotary-wing taxiways and apron. The ARCENT representative stated
ARCENT will submit the revised DD Form 1391 through the Assistant Chief of Staff for

                                            15
	
Installation Management and Deputy Assistant Secretary of the Army for Installation,
Environment and Housing for the USD(C)/CFO for processing. Further, the
representative stated ARCENT will establish a process to ensure unauthorized growth of
future projects is prevented through oversight and coordination with the appropriate
agency. Finally, the ARCENT representative stated ARCENT will coordinate with other
Army agencies to clarify 10 U.S.C. § 2853 guidance.

Our Response
ARCENT comments were responsive and the actions taken and planned met the intent of
the recommendation. We commend ARCENT’s intention to establish a process to ensure
unauthorized growth of future projects are prevented and clarify guidance to ensure
Department of the Army agencies comply with 10 U.S.C. § 2853. These actions will
help ensure MILCON projects are built consistent with congressional intent and in
accordance with legislative requirements. No additional comments are required.

A.3. We recommend that the Commander, U.S. Air Forces Central and the
Director, Air Force Center for Engineering and the Environment ensure the design
drawings for the munitions pads, a primary facility under Project CMBA093975,
are in accordance with the permissible scope of work variations from the
DD Form 1391. If it is not feasible to revise the design drawings, prepare and
submit a revised DD Form 1391 to request that Congress decrease the permissible
square meters for the munitions pads under Project CMBA093975.

U.S. Air Forces Central Comments
The Executive Director, U.S. Central Command Inspector General endorsed and
forwarded comments from AFCENT. An AFCENT representative agreed and stated
AFCENT will submit a request to the U.S. Air Force Air Combat Command, Installations
and Missions Support Directorate to complete the appropriate congressional scope
notification.

Our Response
AFCENT comments were responsive and the actions meet the intent of the
recommendation. No additional comments are required.

Management Comments Required
We did not receive comments from the Director, AFCEE before we issued this final
report. We request that AFCEE provide comments in response to the final report.

A.4. We recommend that the Commanding General, U.S. Army Corps of
Engineers:

       a. Once Recommendation A.1. is implemented, develop and implement
procedures to verify that the U.S. Army Corps of Engineers is performing scope
verifications to ensure compliance with section 2853, title 10, United States Code.



                                          16
	
       b. Ensure the design drawings for the vehicle maintenance shop, a primary
facility under Project 77608, are in accordance with the permissible scope of work
variations from the DD Form 1391.

U.S. Army Corps of Engineers Comments
The Acting Chief, Transatlantic Division Regional Integration Team, Directorate of
Military Programs, USACE agreed to develop and implement procedures to verify that
USACE is performing scope verifications to ensure compliance with 10 U.S.C. § 2853.
The Acting Chief stated that, within 90 days after guidance is issued by the Deputy Under
Secretary of Defense for Installations and Environment, USACE will implement
procedures to check that scope verifications are being conducted for MILCON projects to
ensure compliance with congressional intent and legislative requirements.

The Acting Chief also agreed to ensure the design drawings for the vehicle maintenance
shop under Project 77608 are in accordance with the permissible scope of work variations
from the DD Form 1391. The Acting Chief stated that USACE is working with the
contractor to correct the design and ensure it is in accordance with the DD Form 1391.
He expected the revision to be completed by March 31, 2012.

Our Response
USACE comments were responsive and the actions meet the intent of the
recommendation. No additional comments are required.

A.5. We recommend that the Director, Air Force Center for Engineering and the
Environment once Recommendation A.1. is implemented, develop and implement
procedures to verify that the Air Force Center for Engineering and the
Environment is performing scope verifications to ensure compliance with
section 2853, title 10, United States Code.

Management Comments Required
We did not receive comments from the Director, AFCEE before we issued this final
report. We request that AFCEE provide comments in response to the final report.




                                           17

Finding B. Air Force Center for Engineering
and the Environment Improperly Authorized
Construction and Preparation Activities at
Camp Phoenix and New Kabul Compound
During the requirements development and design processes, AFCEE officials improperly
authorized the construction of facilities under Project 68628, “Camp Phoenix North
Expansion.”13 Specifically, AFCEE officials improperly authorized the construction of a
gymnasium and auditorium at North Camp Phoenix and facilities at New Kabul
Compound, Afghanistan.

This occurred because AFCEE officials did not conduct scope verifications and perform
proper contract administration. Specifically, AFCEE officials did not conduct scope
verifications to ensure that facilities were constructed within the authorized facility sizes.
In addition, the AFCEE contracting officer did not maintain a complete and accurate
copy of the contract file.

As a result, AFCEE officials improperly authorized the expenditure of at least
$3.3 million for the construction of a gymnasium and auditorium at North Camp Phoenix
and for construction preparation activities at New Kabul Compound.

Background on Camp Phoenix North Expansion Project
On February 2, 2007, the USD(C)/CFO approved a DD Form 1391 for the construction
of administrative facilities; barracks; a dining facility; a base exchange; and a morale,
welfare, and recreation facility.14 Based on the DD Form 1391, AFCEE awarded
cost-plus-fixed-fee contract FA8903-06-D-8510, task order 0007, on September 11,
2007, for $17.6 million, using O&M, Army funds under Contingency Construction
Authority. On July 2, 2008, the USD(C)/CFO approved a revised DD Form 1391 that
reduced the authorized facility size of the administrative facilities and barracks and
removed some of the primary facility requirements, including the dining facility; base
exchange; and morale, welfare, and recreation facility. On October 16, 2009, the
U.S. Army Garrison engineer accepted the administrative facility on a DD Form 1354.




13
   The Commission on Wartime Contracting in Iraq and Afghanistan report to Congress, “Transforming
Wartime Contracting Controlling Cost, Reducing Risks,” August 2011, referenced this project when
reporting on the unreliability of some Afghan subcontractors.
14
   The original DD Form 1391 approved the construction of 14 primary facilities, including administrative
facilities; barracks; a dining facility; a base exchange; and a morale, welfare, and recreation facility, among
other facilities.

                                                      18
	
Figure 4 shows the administrative facility constructed, the Joint Task Force 435
Headquarters Building. On July 13, 2011, the Director of Public Works accepted the
barracks on a DD Form 1354.

               Figure 4. Joint Task Force 435 Headquarters Building




             Source: AFCEE Weekly Activity Report, July 25-31, 2010.

Construction of Facilities for One Project Not Authorized
During the requirements development and design processes, AFCEE officials improperly
authorized the construction of facilities under Project 68628, “Camp Phoenix North
Expansion.” Specifically, AFCEE officials improperly authorized the construction of a
gymnasium and auditorium at North Camp Phoenix and facilities at New Kabul
Compound.

Gymnasium and Auditorium
During the requirements development and design processes, AFCEE officials improperly
included a requirement in the task order SOW to construct a 743-square-meter
gymnasium not authorized on the DD Form 1391 or included in the task order request for
proposal. Section 2853, title 10, United States Code, states that the scope of work for a
MILCON project may not be increased from the justification data provided to Congress
on the congressional request for authorization, the DD Form 1391.

In addition, during the design process, AFCEE officials improperly accepted design
drawings that included another requirement, the construction of a 1,079-square-meter
auditorium, not authorized on the DD Form 1391 and not within the terms and conditions
of the contract. Specifically, an AFCEE official did not include the auditorium in the
task order request for proposal or the SOW. The Federal Acquisition Regulation,
subpart 1.602.2, “Responsibilities,” states that contracting officers are responsible for
ensuring compliance with terms of the contract. On September 24, 2009, the U.S. Army
Garrison engineer accepted both the gymnasium and the auditorium on a DD Form 1354.

                                              19
	
See Table 4 for a listing of documentation that AFCEE used to authorize and accept those
facilities for the Camp Phoenix North Expansion MILCON project.

                     Table 4. Camp Phoenix North Expansion Project 

                            Facilities Authorized and Accepted
	

                                         Request
                        Revised                                Design          DD
  Facility Name                            for      SOW
                      DD Form 1391                            Drawings*     Form 1354
                                         Proposal

    Gymnasium                No            No        Yes         No             Yes
    Auditorium               No            No        No          Yes            Yes
*Based on 100 percent design drawings.

When asked why AFCEE officials paid approximately $2.9 million for facilities not
authorized on the DD Form 1391 or included in the task order request for proposal, an
AFCEE official stated that the gymnasium and the auditorium were actually constructed
as transient barracks space and used as such upon completion in September 2009.
Therefore, the AFCEE official concluded that the two facilities constructed were within
the scope of the DD Form 1391 and used for their approved use after construction. After
18 months of use as transient barracks, an AFCEE official stated one facility was
converted for use as a gymnasium in March 2011. The other facility is still being used as
transient barracks as of November 2011. On September 13, 2011, an AFCEE official
provided a revised DD Form 1354 that re-categorized and accepted both facilities as
barracks.

While AFCEE officials’ action to re-categorize these facilities as barracks is within the
scope of the primary facilities listed on the DD Form 1391, the action resulted in the
barracks exceeding the facility size authorized on the DD Form 1391. The Commander,
ARCENT should prepare and submit a DD Form 1391 to request the USD(C)/CFO, with
congressional notification, to retroactively approve the construction of the gymnasium
and auditorium or to increase the permissible facility size for the barracks.




                                            20
	
Figure 5 shows the nontransient barracks completed at North Camp Phoenix. 


                            Figure 5. Nontransient Barracks




             Source: AFCEE Weekly Activity Report, May 22-28, 2011.

New Kabul Compound
During the design process, AFCEE officials improperly awarded a modification to the
contract using funds designated for Project 68628 to construct facilities outside the scope
of the original task order and not authorized on the DD Form 1391. On September 29,
2007, the contracting officer improperly approved an approximately $5.3 million
modification for the construction of facilities at New Kabul Compound, a separate
location from North Camp Phoenix. However, Federal Acquisition Regulation,
subpart 52.243-2, “Changes-Cost-Reimbursement,” which the contracting officer used to
execute the modification, only allows the contracting officer to make changes within the
general scope of the contract.

On April 11, 2008, upon AFCEE’s discovery of the improper approval, the contracting
officer ordered the contractor to stop work. Although the improper authorization of
construction at a separate location was identified, an AFCEE official stated they
expended about $391,041 of the approximately $5.3 million obligated for the New Kabul
Compound. An AFCEE official stated that expenditures for the New Kabul Compound
included construction preparation activities, such as mobilization, site security, and
design efforts. The Director, AFCEE should verify that the expenditure of about
$391,041 in funds designated for the Camp Phoenix North Expansion project is
redesignated for the New Kabul Compound.




                                              21
	
Scope Verifications Not Performed
AFCEE officials did not perform scope verifications to ensure the primary facilities in the
requirements documents were in accordance with those listed on the DD Form 1391.
Had AFCEE officials conducted scope verifications, they would have identified that the
revised DD Form 1391 did not include requirements for the gymnasium, auditorium, or
the New Kabul Compound. Because we recommended that AFCEE develop procedures
to verify that scope verifications are performed in Finding A, we focused the
recommendations on identifying personnel accountable for not conducting proper
contract administration and improperly expending funds.

Contract Administration Needed Improvement
AFCEE officials did not maintain a complete and accurate copy of the contract file,
including an updated SOW that reflected accurate project requirements. Instead, the
June 30, 2010, SOW still included requirements for a dining facility; a base exchange;
and a morale, welfare, and recreation facility, which were removed from the July 2, 2008,
revised DD Form 1391 and never built. The Defense Federal Acquisition Regulation,
subpart 204.8, “Contract Files,” states that official contract files shall consist of only
original, authenticated, or conformed copies of contractual instruments, as well as signed
or official record copies of correspondence, memoranda, and other documents. A
conformed copy of a contract is one that is complete and accurate, including the date
signed and the names and titles of the parties who signed it. Further, Federal Acquisition
Regulation, subpart 4.8, “Government Contract Files,” states that these files should
provide a complete background for decisionmaking and actions taken, as well as, to
furnish essential facts in case of litigation or congressional review. The Director, AFCEE
should implement procedures to ensure that contract modifications have complete
justifications and related documents are included in the contract file.

Although the improper authorization of the New Kabul Compound was identified and the
contracting officer ordered the contractor to stop work, AFCEE officials did not remove
the requirement to build the New Kabul Compound from the SOW. In June 2011
AFCEE, Chief, Contingency Construction, stated AFCEE would officially de-scope the
New Kabul Compound work from the contract, despite the fact that the contract had been
modified several times subsequent to the error being identified in April 2008. The
Director, AFCEE should identify the officials responsible for not performing proper
contract administration, perform a review of the contract file to ensure it is complete and
accurate, and initiate administrative action, as deemed appropriate.




                                            22
	
Expenditure of Funds Not Authorized
AFCEE officials improperly expended approximately $3.3 million in O&M, Army funds
under Contingency Construction Authority for Project 68628, “Camp Phoenix North
Expansion.” Specifically, AFCEE officials improperly expended approximately:

       $2.9 million to construct a gymnasium and an auditorium at North Camp Phoenix;
       and
       $0.4 million to conduct construction preparation activities at the New Kabul
       Compound.

Because a U.S. Army official ultimately accepted the construction of the gymnasium and
auditorium on a DD Form 1354 and the U.S. Army received a benefit from the
construction, we did not recommend that AFCEE officials recover the approximately
$2.9 million from the contractor. However, the use of funds for the unauthorized
construction emphasizes the need for improvement in contract administration.

Management Actions Taken and Planned
In November 2011, the AFCEE Chief, Contingency Construction stated that AFCEE
officials have taken action to ensure the contract file is complete and accurate. However,
although the Chief stated AFCEE officials have taken action to ensure the contract file is
complete and accurate, AFCEE officials should provide supporting documentation. In
addition, the AFCEE Chief, Contingency Construction stated that they plan to put
procedures in place to ensure contract modifications have complete justifications and
related documents are included in the contract file.

Management Comments on the Finding and
Our Response
U.S. Army Central Comments
The Executive Director, U.S. Central Command Inspector General endorsed and
forwarded comments from ARCENT. An ARCENT representative reviewed the
document used during the audit of Project 68628, “Camp Phoenix North Expansion,” and
determined that DD Form 1391 used was not the official version. An ARCENT
representative stated the official version of the DD Form 1391 is dated February 2, 2007,
and allows for the increased permissible square meters for the barracks as a primary
facility.

Our Response
During the audit, AFCEE officials stated that the July 2, 2008, version of the
DD Form 1391 for Project 68628 was the most current version. Whether or not the
February 2, 2007, version of the DD Form 1391 for Project 68628 is the official version,
it does not change our determination that AFCEE officials improperly authorized the
expenditure of approximately $0.4 million for construction preparation activities at New
Kabul Compound.

                                            23 

However, when we used the February 2, 2007, version of the DD Form 1391 to
recalculate whether primary facilities were accepted in accordance with scope of work
variations permissible by 10 U.S.C. § 2853, we determined that U.S. Army officials
accepted additional primary facilities not reported in Finding A that were not in
accordance with facility sizes on the congressional request for authorization.
Specifically, for the barracks, the facility size on the DD Form 1391 was 12,263 square
meters and the facility size of barracks on the DD Form 1354 was 8,698 square meters, a
decrease of 29.1 percent (4.1 percent over the 25 percent limit). For the administrative
facilities, the facility size on the DD Form 1391 was 8,534 square meters and the facility
size of the administrative facility on the DD Form 1354 was 2,963 square meters, a
decrease of 65.3 percent (40.3 percent over the 25 percent limit). Therefore, if the Army
considers the February 2, 2007, version of the DD Form 1391 to be the official version,
the Commander, ARCENT should respond to recommendation B.1 that he will complete
the appropriate congressional notifications, rather than request that the Under Secretary
of Defense (Comptroller)/Chief Financial Officer increase the permissible square meters
for the barracks.

Recommendations, Management Comments, and Our
Response
B.1. We recommend that the Commander, U.S. Army Central prepare and submit
a DD Form 1391 to request that the Under Secretary of Defense (Comptroller)/Chief
Financial Officer retroactively approve the construction of the gymnasium and
auditorium or increase the permissible square meters for the barracks, a primary
facility under Project 68628.

U.S. Army Central Comments
The Executive Director, U.S. Central Command Inspector General endorsed and
forwarded comments from ARCENT. An ARCENT representative agreed and stated
they will submit a revised DD Form 1391 through the Assistant Chief of Staff for
Installation Management and Deputy Assistant Secretary of the Army for Installation,
Environment and Housing for the USD(C)/CFO for processing.

Our Response
ARCENT comments were partially responsive. While an ARCENT official agreed, it
was unclear what actions ARCENT plans to take based on their comments to the finding.
Specifically, ARCENT did not agree with the July 2, 2008, version of the DD Form 1391
used to complete our analysis of Project 68628. We request additional comments in
response to the final report to clarify what actions ARCENT plans to take to ensure all
primary facilities accepted for Project 68628 are in accordance with scope of work
variations permissible by 10 U.S.C. § 2853, or complete the appropriate congressional
notifications.




                                            24
	
B.2. We recommend that the Director, Air Force Center for Engineering and the
Environment:

     a. Identify the officials responsible for not performing proper contract
administration, perform a review of the contract file to ensure it is complete and
accurate, and initiate administrative action, as deemed appropriate.

       b. Implement procedures to ensure contract modifications have complete
justifications and related documents are included in the contract file.

    c. Verify that the expenditure of about $391,041 in funds designated for the
Camp Phoenix North Expansion project is redesignated for the New Kabul
Compound.

Management Comments Required
We did not receive comments from the Director, AFCEE before we issued this final
report. We request that AFCEE provide comments in response to the final report.




                                          25
	
Appendix A. Scope and Methodology
We conducted this performance audit from November 2010 through December 2011 in
accordance with generally accepted government auditing standards. Those standards
require that we plan and perform the audit to obtain sufficient, appropriate evidence to
provide a reasonable basis for our findings and conclusions based on our audit objectives.
We believe that the evidence obtained provides a reasonable basis for our findings and
conclusions based on our audit objectives.

Our objective was to evaluate the requirements development process for MILCON
projects in Afghanistan. We determined whether the requirements development and
design processes resulted in SOWs that had defined requirements, had measurable
outcomes, and met DoD’s needs. To accomplish this objective, we reviewed and
compared documents dated from January 2006 through November 2011 related to
MILCON project requirements, including the DD Form 1391, SOW, design drawings,
request for proposal, contract, contract modifications, work change requests, and
DD Form 1354.

We contacted staff and conducted interviews, as appropriate, with officials from
U.S. Central Command, U.S. Forces-Afghanistan, Combined Security Transition
Command-Afghanistan, USACE, and AFCEE.

We conducted site visits to Bagram Airfield, Camp Bastion, Camp Leatherneck, Camp
Marmal, Camp Phoenix, and Kandahar Airfield; obtained source documentation; and
observed and examined project status.

We reviewed public laws and DoD, Army, and Air Force regulations, instructions, and
informal guidance. Specifically, we reviewed section 2853, title 10, United States Code;
Federal Acquisition Regulation; Defense Federal Acquisition Regulation Supplement;
Army Regulation 420-1, “Army Facilities Management,” June 17, 2009; and Air Force
Instruction 32-1021, “Planning and Programming Military Construction (MILCON)
Projects,” June 14, 2010.

Contracts Reviewed
We nonstatistically selected 10 contracts that were provided by USACE and AFCEE for
projects in Afghanistan, totaling approximately $456 million. Specifically, we selected
five USACE and five AFCEE contracts, delivery orders, or task orders that encompassed
17 projects. All of the projects selected were executed under the design-build strategy.

USACE Contracts
In December 2010, USACE officials provided a list of 159 projects in Afghanistan for
FYs 2009 and 2010. We nonstatistically selected five contracts based on project type,
cost, and location. The five contracts selected encompassed eight projects. We included
all of the projects under the contracts selected in the scope of the audit.



                                           26
	
See Table A-1 for a list of the contracts selected for USACE.

            Table A-1. U.S. Army Corps of Engineers Contracts Reviewed
    Contract Number,         Project        Project Number          Primary
    Effective Date, and    Location in         and Name             Funding
      Contract Cost1       Afghanistan                              Source2

    W912ER-09-C-0011                                     73087 - Brigade
                                                                                           O&M, Army
                                                         Housing and Battalion
                                 Kandahar                                                  Under CCA
    4-10-2009                                            Relocation
                                 Airfield
                                                         73089 - South Park                O&M, Army
    $42.6 Million                                        Infrastructure, Phase 1           Under CCA
    W912ER-09-C-0037
                                                         73395 - Command and               Military
                                 Kandahar
    9-15-2009                                            Control Headquarters              Construction,
                                 Airfield
                                                         Facility                          Army
    $12.2 Million
    W5J9JE-10-D-0006,
    Delivery Order 0002
                                 Bagram                  72605 - Troop Housing,            Military
                                 Airfield                Phase 3                           Construction,
    9-5-2010
                                                                                           Army
    $11.1 Million
                                                                                           Military
                                                         LYAV093300 -
                                                                                           Construction,
                                                         Strategic Airlift Apron
                                                                                           Air Force
    W912ER-10-C-0034
                                 Kandahar                                                  Military
                                                         LYAV103200 -
    6-4-2010                     Airfield                                                  Construction,
                                                         Tactical Airlift Apron
                                                                                           Air Force
    $31.9 Million                                        KARD104320 - Special
                                                                                           Military
                                                         Operations Forces
                                                                                           Construction,
                                                         Aviation Ramp
                                                                                           Air Force
                                                         Extension
    W912ER-10-C-0054
                                                         77608 - Special
                                                                                           O&M, Army
    9-24-2010                    Camp Marmal             Operations Forces
                                                                                           Under CCA
                                                         Compound
    $29.5 Million
1
  The contract cost includes the cost of the original contract and all modifications to that contract available 

on the Electronic Document Access Web site as of August 23, 2011. 

2
  The contracts selected were primarily funded with Military Construction funds or O&M funds under
	
Contingency Construction Authority (CCA). 





                                                       27
	
AFCEE Contracts
In December 2010, AFCEE officials provided a list of 32 projects in Afghanistan for
FYs 2009 and 2010. We nonstatistically selected five contracts based on project type,
cost, and location. The five contracts selected encompassed nine projects. We included
all of the projects under the contract selected in the scope of the audit. Although
Project ACC101101 was a repair project and not a construction project, the requirements
for Project ACC101101 were approved on a DD Form 1391, “FY __ Military
Construction Project Data,” and therefore, we included Project ACC101101 in the scope
of the audit.




                                          28
	
See Table A-2 for a list of the contracts selected for AFCEE.

                    Table A-2. Air Force Center for Engineering and the
                             Environment Contracts Reviewed
    Contract Number,                Project                   Project Number                Primary
    Effective Date, and           Location in                   and Name                 Funding Source2
      Contract Cost1              Afghanistan

                                                        CMBA093940 -                     O&M, Air Force
    FA8903-06-D-8505,                                   Strategic Airlift Apron          Under CCA
    Task Order 0016
                                                        CMBA093950 -                     O&M, Air Force
                                Camp Bastion            Runway                           Under CCA
    4-30-2009
                                                        73290 - Rotary-Wing
    $185.1 Million                                                                       O&M, Army
                                                        Parking and Taxiways,
                                                                                         Under CCA
                                                        Phase 1
    FA8903-06-D-8505,                                   CMBA093975 -                     Military
    Task Order 0023                                     Expand Munitions                 Construction, Air
                                                        Storage Area                     Force
                                Camp Bastion
    6-2-2010
                                                        77159 - Ammunition               O&M, Army
    $61.5 Million                                       Storage Point                    Under CCA
    FA8903-06-D-8506,
    Task Order 0004
                                Shindand Air            ACC101101 - Repair
                                                                                         O&M, Air Force
    3-26-2010                   Base                    Runway 18/36

    $36.6 Million
    FA8903-06-D-8510,
    Task Order 0007
                                                        68628 - Camp Phoenix             O&M, Army
                                Camp Phoenix
    9-11-2007                                           North Expansion                  Under CCA

    $31.8 Million
    FA8903-06-D-8511,                                                                    Military
                                                        73222 - Brigade
    Task Order 0056             Camp Bastion                                             Construction,
                                                        Headquarters Facility
                                                                                         Army
    2-26-2010                                                                            Military
                                Camp                    73210 - Brigade
                                                                                         Construction,
    $13.9 Million               Leatherneck             Headquarters Facility
                                                                                         Army
1
  The contract cost includes the cost of the original contract and all modifications to that contract available 

on the Electronic Document Access Web site as of August 23, 2011.

2
  The contracts selected were primarily funded with Military Construction funds or O&M funds
	
Contingency Construction Authority (CCA). 




                                                       29
	
Use of Computer-Processed Data
We relied on computer-processed data from the Electronic Document Access Web site.
Electronic Document Access is a Web-based system that provides online access of
acquisition-related documents. We used the system to obtain contractual documents for
the 10 contracts selected for this audit. We compared those electronically-accessed
documents with statements and documents provided by USACE and AFCEE officials.
From these procedures, we are confident that the Electronic Document Access Web site
was sufficiently reliable for the purpose of acquiring contract documents for our analysis
of the MILCON requirements development and design processes.

We also relied on computer-processed data from the U.S. Army Programming
Administration and Execution System and the U.S. Air Force Automated Civil Engineer
System-Project Management Module. The Programming Administration and Execution
System is a database that allows for the development and submission of installation
projects fulfilling requirements for U.S. Army MILCON planning. The Automated Civil
Engineer System-Project Management Module is the official U.S. Air Force-wide
database management system used to create, store, retrieve, and update MILCON project
records.

USACE and AFCEE officials used these systems to retrieve the DD Forms 1391 for
some of the 17 projects selected for this audit. We compared some of the
electronically-accessed documents with documents provided by USACE and AFCEE
officials. From these procedures, we are confident that the Programming Administration
and Execution System and Automated Civil Engineer System-Project Management
Module were sufficiently reliable for the purpose of acquiring contract documents for our
analysis of the MILCON requirements development process.

Prior Coverage
During the last 5 years, the DoD Inspector General (DoD IG) issued two reports and the
Army Audit Agency issued two reports, discussing MILCON requirements. Unrestricted
DoD IG reports can be accessed at http://www.dodig.mil/audit/reports. Unrestricted
Army reports can be accessed from .mil and gao.gov domains over the Internet at
https://www.aaa.army.mil/.

DoD IG
DoD IG Report No. D-2010-059, “Contingency Contracting: A Framework for Reform,”
May 14, 2010

DoD IG Report No. D-2009-022, “Base Realignment and Closure 2005 Military
Construction Project to Consolidate and Relocate Service Media Activities to Fort
Meade, Maryland,” November 14, 2008

Army
Army Audit Agency Report No. A-2009-0030-ALE, “Military Construction
Requirements: U.S. Army Garrison Vicenza,” February 2, 2009

                                            30
	
Army Audit Agency Report No. A-2006-0076-ALE, “Military Construction
Requirements in Europe,” March 17, 2006




                                       31
	
Appendix B. DD Form 1391, “FY __ Military
Construction Project Data”




                    32
	
33
	
Glossary
Contingency Construction Authority. Authority granted in section 2808 of the
National Defense Authorization Act for Fiscal Year 2004 to use a specified amount of
Operations and Maintenance funds for construction projects outside the United States in
FY 2004. Each year, the National Defense Authorization Act has extended this
Contingency Construction Authority for use in the current fiscal year. In order for a
project to be funded under Contingency Construction Authority, the project must meet
the following the criteria in section 2808:

        the construction is necessary to meet urgent military operational requirements of
        a temporary nature involving the use of Armed Forces in support of a declaration
        of war or national emergency or for a contingency operation;
        the construction is not carried out at a military installation where the United
        States is reasonably expected to have a long-term presence, unless the installation
        is located in Afghanistan;
        the United States has no intention of using the construction after the operational
        requirements have been met;
        the level of construction is the minimum necessary to meet the temporary
        operational requirements; and
        the project is in the U.S. Central Command area of responsibility or the area of
        responsibility and area of interest of the Combined Joint Task Force-Horn of
        Africa.

If the project meets all of the above criteria, the Under Secretary of Defense
(Comptroller)/Chief Financial Officer may approve the project, with congressional
notification.

Facility. A building, structure, or other improvement to real property.

Operations and Maintenance. Funds provided by Congress and typically used for
expenses, such as civilian salaries, travel, minor construction projects, operating military
forces, training and education, depot maintenance, stock funds, and base operations
support. When used to fund unspecified minor military construction projects, the project
may not exceed $750,000 unless the project is intended to correct a deficiency that
threatens life, health, or safety. In that case, the authority to use operations and
maintenance funds for unspecified minor military construction projects is increased to
$1.5 million.

Specified Military Construction. Funds provided by Congress in the Military
Construction Appropriations Act for specified military construction projects. Military
construction projects with a cost expected to exceed $2 million are normally “specified.”

Unspecified Minor Military Construction. Funds provided by Congress in the Military
Construction Appropriations Act for unspecified minor military construction projects.
Unspecified minor military construction projects are normally defined as those projects

                                             34 

that are expected to cost $2 million or less. However, an unspecified minor military
construction project may have an approved cost up to $3 million if it is to correct a
deficiency that threatens life, health, or safety. Before beginning an unspecified minor
military construction project with an approved cost equal to or greater than $750,000, the
Service Secretary must notify the appropriate congressional committees, and wait
21 days.




                                            35
	
Deputy Under Secretary of Defense for Installations and
  Environment Comments




                                 36
U.S. Central Command Comments
 





                              37
       Final Report 

        Reference






     Page 15
     Page 24




38
39
40
41
42
43
44
45
46
47
       Final Report 

        Reference






     Revised




48
U.S. Army Corps of Engineers Comments
 





                               49
50
